Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Fulton County, Georgia, Police Department

GR-40-03-001


November 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Fulton County, Georgia, Police Department (FCPD).  The purpose of the grants is to enhance community policing.  The FCPD was awarded a total of $1,230,862 to hire 17 new police officers and redeploy the equivalent of 17 existing full-time police officers from administrative duties to community policing.
We reviewed the FCPD's compliance with six essential grant conditions and found the grantee's budgeting for officers, hiring of officers, source of local matching funds, retention of officer positions, and types of community policing to be acceptable.  However, we found the FCPD charged unallowable costs to the Accelerated Hiring, Education, and Deployment (AHEAD) grant ($2,402) and Universal Hiring Program (UHP) supplements to the AHEAD grant ($1,427).
The above item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.